     Department of Homeland Security



             FEMA Public Assistance Grant
           Funds Awarded to Cameron Parish
           School Board, Cameron, Louisiana




DD-12-04                                      November 2011
                                                                     Office ofInspector General

                                                                     U.S. Department of Homeland Security
                                                                     Washington, DC 20528




                                                                     Homeland
                                                                     Security

                                              NOV 2 9 2011

MEMORANDUM FOR:                   Tony Russell
                                  Regional Administrator, Region VI
                                  Federal Emergency       ag ent Agency

FROM:                             Matt Jadacki
                                  Assistant Inspe t r Gene
                                  Office of Emergency Management Oversight

SUBJECT:                          FEMA Public Assistance Grant Funds Awarded to
                                  Cameron Parish School Board, Cameron, Louisiana
                                  FEMA Disaster Number 1607-DR-LA
                                  Audit Report Number DD-12-04

We audited public assistance grant funds awarded to Cameron Parish School Board
(Cameron) in Cameron, Louisiana (Public Assistance Identification Number 023-00E84-00).
Our audit objective was to determine whether Cameron accounted for and expended Federal
Emergency Management Agency (FEMA) grant funds according to federal regulations and
FEMA guidelines.

The Governor's Office of Homeland Security and Emergency Preparedness (GOHSEP), a
FEMA grantee, awarded Cameron $65.1 million for damages resulting from Hurricane Rita,
which occurred on September 24,2005. The award provided 100% funding for 50 large and
39 small projects. 1 The audit covered the period September 24,2005, through March 22,
2011, the cutoff date of our audit, and included a review of 20 large and 6 small projects
totaling $62.2 million, or 95% of the total award (see Exhibit, Schedule of Projects Audited)?
As of our cutoff date, Cameron had claimed $46.1 million, but had not completed all projects.




1 Federalregulations in effect at the time of the disaster set the large project threshold at $55,500.
2 We audited the gross amount of$75.5 million awarded before reductions for insurance and donations from a
local company for temporary classrooms and gym floors.
Table 1 shows the gross and net award amounts before and after reductions for insurance and
donations from a local company (temporary classrooms and gym floors) for all projects and
for those in our audit scope.

                          Table 1. Gross and Net Award Amounts
                                                     Insurance and
                                  Gross Award          Donation       Net Award
                                    Amount            Reductions       Amount
               All Projects       $79,729,938        ($14,603,579)   $65,126,359
               Audit Scope        $75,541,881        ($13,376,194)   $62,165,687

We conducted this performance audit pursuant to the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based upon our audit objective.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based upon our audit objective. We conducted this audit according to the
statutes, regulations, and FEMA policies and guidelines in effect at the time of the disaster.

We interviewed FEMA, GOHSEP, and Cameron officials; reviewed judgmentally selected
samples of project costs (generally based on dollar value); and performed other procedures
considered necessary to accomplish our objective. We did not assess the adequacy of
Cameron’s internal controls applicable to grant activities because it was not necessary to
accomplish our audit objective. We did, however, gain an understanding of Cameron’s
method of accounting for disaster-related costs and its procurement policies and procedures.


                                       BACKGROUND

Cameron Parish School Board, in southwestern Louisiana, is a local government entity
authorized by the State of Louisiana to provide public education to the citizens of Cameron
Parish. Before Hurricane Rita, Cameron consisted of six schools with grades prekindergarten
through high school. Heavy rains, high winds, and a 15- to 20-foot high storm surge
destroyed or severely damaged four schools, a central office administration complex, and a
central warehousing facility, and caused major damage to the remaining two schools.
Cameron consolidated its six schools into four and relocated the school campuses.


                                    RESULTS OF AUDIT

Generally, Cameron accounted for and expended FEMA grant funds according to federal
regulations and FEMA guidelines. However, although Cameron used full and open
competition in awarding $49.6 million in contracts, it did not include required provisions in its
contracts and did not take sufficient steps to ensure the use of small businesses, minority­




                                                2

owned firms, women’s business enterprises, and labor surplus area firms for its contract work.
In addition, FEMA should complete its insurance review and allocate approximately
$1 million of insurance proceeds to Cameron’s projects.

Finding A: Contracting

Although Cameron used full and open competition in awarding $49.6 million in contracts, it
did not comply with two other procurement standards required by federal regulations. First,
Cameron did not include in its contracts the provisions required by 44 CFR 13.36(i). These
provisions document the rights and responsibilities of the parties and minimize the risk of
misinterpretations and disputes.

Second, Cameron did not take sufficient steps to ensure the use of small businesses, minority-
owned firms, women’s business enterprises, and labor surplus area firms. Federal regulations
require subgrantees to take all necessary affirmative steps to ensure that they use these
businesses when possible (44 CFR 13.36(e)). Although Cameron did not take the specific
affirmative steps listed in the regulations, it did award half of its contracts to small or
disadvantaged businesses (17 contracts totaling $14.3 million out of 31 contracts totaling
$49.6 million). Therefore, we did not question any costs related to contracting because
Cameron otherwise properly procured its disaster-related contracts. However, for future
federally funded disaster contracts, Cameron should ensure that it complies with all federal
procurement standards.

Finding B: Insurance Allocation

Cameron received $10.3 million in insurance proceeds for wind and flood damage. However,
FEMA had not allocated approximately $1 million that Cameron received in flood insurance
proceeds (buildings and contents) for South Cameron High School. Federal regulations at 44
CFR 206.250(c) require FEMA to deduct actual and anticipated insurance recoveries from
otherwise eligible costs. Therefore, FEMA should complete its insurance review and allocate
approximately $1 million in applicable insurance proceeds to Cameron’s projects. FEMA
officials agreed with this finding and stated that they will follow up with Cameron and adjust
the projects to reflect the correct insurance allocations.


                                  RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region VI:

Recommendation #1: Require GOHSEP to direct Cameron to include all federally required
contract provisions in its contracts and to establish the necessary affirmative steps to ensure
the use of small businesses, minority-owned firms, women’s business enterprises, and labor
surplus area firms (finding A).




                                               3

Recommendation #2: Complete the insurance review and allocate approximately $1,000,000
($1,000,000 federal share) of insurance proceeds to the total cost of Cameron’s projects.
Because some of the costs are funded from another source, they are ineligible (finding B).


           DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with Cameron officials during our audit and included
their comments in this report, as appropriate. We also provided a draft report in advance to
FEMA, GOHSEP, and Cameron officials and discussed it at exit conferences held with
FEMA officials on September 22, 2011, and with GOHSEP and Cameron officials on
September 21, 2011. FEMA, GOHSEP, and Cameron officials generally agreed with our
findings and recommendations.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. To promote transparency, this
report will be posted to our website. Significant contributors to this report were
Tonda Hadley, Paige Hamrick, James Mitchell, and Tai Cheung.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
Tonda Hadley at (214) 436-5200.

cc:	   Administrator, FEMA
       Executive Director (Acting), FEMA Louisiana Recovery Office
       Audit Liaison, FEMA Louisiana Recovery Office
       Audit Liaison, FEMA Region VI
       Audit Liaison, FEMA (Job Code G-11-031)
       Audit Liaison, DHS




                                               4

                                                          EXHIBIT
            Schedule of Projects Audited

        September 24, 2005, to March 22, 2011

   Cameron Parish School Board, Cameron, Louisiana

        FEMA Disaster Number 1607-DR-LA



                             Insurance
               Gross             and
  Project     Award          Donation       Net Award
 Number       Amount        Reductions       Amount
   2397     $24,860,243       (2,735,917)   $22,124,326
   4730      11,599,959       (3,702,105)     7,897,854
   2393       6,206,959         (842,858)     5,364,101
    533       5,741,003       (1,842,758)     3,898,245
   2206       3,512,582         (134,008)     3,378,574
   4001       3,612,881         (780,154)     2,832,727
   4653       2,440,993                 0     2,440,993
   4654       1,738,093          (14,261)     1,723,832
   2511       2,823,780       (1,216,856)     1,606,924
   2406       1,411,454           (5,427)     1,406,027
   2962       2,285,863       (1,012,856)     1,273,007
   2478       2,197,544         (938,968)     1,258,576
   4630       1,244,984                 0     1,244,984
   2725       1,168,699                 0     1,168,699
   2691       1,268,214         (143,031)     1,125,183
   4629       1,031,270                 0     1,031,270
   3467         862,618           (3,233)       859,385
   4631         760,153                 0       760,153
   2382         306,198           (3,762)       302,436
   4628         267,918                 0       267,918
   4604          53,694                 0        53,694
   4410          45,782                 0        45,782
    620          45,265                 0        45,265
   1041          24,383                 0        24,383
   4668          23,202                 0        23,202
   4647           8,147                 0         8,147
Totals      $75,541,881    $(13,376,194)    $62,165,687




                          5

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, e-mail your request to our
OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov, or visit our OIG
websites at www.dhs.gov/oig or www.oig.dhs.gov.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
